TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Incurred Cost Audit for the Period
                   July 1, 2000, through September 30, 2001


                                         December 2005

                             Reference Number: 2006-1C-013




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 20, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Incurred Cost Audit for the Period July 1, 2000, through
                             September 30, 2001 (Audit # 20061C0204)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s incurred cost proposal
 and related books and records for reimbursement of Fiscal Year 2001 incurred costs. The
 purpose of the examination was to determine allowability and allocability of direct and indirect
 costs and to establish audit-determined indirect cost rates for July 1, 2000, through
 September 30, 2001. The DCAA indicated that this is a 15-month fiscal year because the
 contractor changed its fiscal year from July 1 through June 30 to October 1 through
 September 30. The proposed rates apply primarily to the flexibility-priced contracts.

 Synopsis
 The DCAA qualified its audit results pending receipt of the assist audits. The DCAA was unable
 to confirm the allowability of subcontract costs included in the submission. The DCAA
 indicated that the results of the assist audits are considered essential to the conclusion of this
 audit to the extent that additional costs may be questioned based on the results of the assist audits
 of claimed subcontract costs.
 Claimed direct costs are provisionally approved pending final acceptance. The indirect rates are
 acceptable as proposed. The DCAA audit did not take exception to the contractor’s proposed
 Cost of Money factors.
                     Incurred Cost Audit for the Period July 1, 2000, through
                                     September 30, 2001



The DCAA report was issued in September 2002; however, the Treasury Inspector General for
Tax Administration did not receive the report until November 2005. We are transmitting this
report to you to enable the Internal Revenue Service to track any financial accomplishments
derived from the negotiations with the contractor based on the results of the DCAA report.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                   NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the Contracting Officer, to duly authorized
representatives of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
